           Audit Report




Sensitive Information at Social
Security Administration Offices




    A-01-13-13025 | October 2013
MEMORANDUM


Date:      October 18, 2013                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Sensitive Information at Social Security Administration Offices (A-01-13-13025)

           The attached final report presents the results of our audit. Our objective was to determine
           whether sensitive information, such as personally identifiable information, in Social Security
           Administration offices was at risk for disclosure to the public.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Sensitive Information at Social Security Administration Offices
A-01-13-13025

October 2013                                                                Office of Audit Report Summary

Objective                                   Our Findings

To determine whether sensitive              In April 2013, we made unannounced visits to 38 SSA offices:
information, such as personally             24 field offices, 12 hearing offices, and 2 Social Security card
identifiable information (PII), in Social   centers. During those visits, we either observed or overheard
Security Administration (SSA) offices       sensitive information at risk in 13 (34 percent) of the 38 offices we
was at risk for disclosure to the public.   visited.

Background                                  For example, at the front counter area of one field office, we
                                            observed a Social Security card (with name and SSN), a letter from
Generally, SSA cannot conduct               SSA to a beneficiary (with their name and address), and a printed
business without exchanging PII and         application for benefits (with the applicant’s name, SSN, and claim-
other sensitive information with the        specific information). These documents are common in the daily
public. PII can be used to distinguish      conduct of business at SSA offices. Additionally, SSA could not
or trace that individual’s identity, such   control how careful the public was with sensitive information, even
as name, Social Security number             though staff remind visitors of the need to be careful.
(SSN), or date of birth.
                                            Conversely, although offices generally were not expecting our
Safeguarding sensitive information has      visits, we did not observe sensitive information at risk in the
been a priority for SSA since its           remaining 25 offices (66 percent) visited.
creation in 1935. The first regulation
the Social Security Board adopted           Sensitive information, including PII, is at risk for inadvertent
addressed privacy and the disclosure of     disclosure in SSA offices where the public transacts business.
Social Security records. Subsequent         Recognizing this, the Agency has taken steps to safeguard sensitive
regulations and laws, including the         information, including emphasizing to all employees their duty to
Privacy Act of 1974, further defined        protect this information and building privacy protections into the
the Agency’s responsibilities to protect    physical design of offices.
sensitive information. Accordingly,
the Agency requires that employees          Our Conclusion
protect PII, has established guidance
and resources for employees, and            SSA should continue to remind staff on an on-going basis of the
annually reminds all employees of that      importance of protecting sensitive information.
requirement and the availability of
those resources.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     SSA Safeguards for Sensitive Information ................................................................................2
     SSA Offices We Visited ............................................................................................................3
Results of Review ............................................................................................................................4
Conclusion .......................................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Offices Visited .................................................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Sensitive Information at SSA Offices (A-01-13-13025)
ABBREVIATIONS
FISMA                Federal Information Security Management Act of 2002

PII                  Personally Identifiable Information

SSA                  Social Security Administration

SSN                  Social Security Number




Sensitive Information at SSA Offices (A-01-13-13025)
OBJECTIVE
Our objective was to determine whether sensitive information, such as personally identifiable
information (PII), 1 in Social Security Administration (SSA) offices was at risk for disclosure to
the public.

BACKGROUND
Safeguarding sensitive information has been a priority for SSA since its creation in 1935. The
first regulation the Social Security Board adopted addressed privacy and the disclosure of Social
Security records. Subsequent regulations and laws, including the Privacy Act of 1974, 2 further
defined the Agency’s responsibilities to protect sensitive information.

Accordingly, SSA (a) requires that employees protect PII, (b) established guidance and resources
for employees, and (c) annually reminds all employees of that requirement and the availability of
those resources. Additionally, (in response to Office of Management and Budget requirements), 3
SSA employees sign a statement every year acknowledging that they have read and understood
the Agency’s annual reminder on safeguarding PII.

SSA established field offices, hearing offices, and Social Security card centers for the public to
transact business. Generally, SSA cannot conduct business without exchanging PII and other
sensitive information with the public. Although designed in a variety of layouts that separate the
public from employee work areas, all offices have areas where the public and SSA staff interact.
For example, all offices have a reception area where members of the public typically provide an
SSA employee with their name and Social Security number (SSN). Some field offices have an
employee work area near the reception area where claims representatives interview the public for
benefit applications, and members of the public circulate through this area escorted by SSA staff.
In other offices, claims representatives conduct benefit application interviews at their desks in
the staff work area.




1
  PII is “. . . any information about an individual maintained by an agency, including (1) any information that can be
used to distinguish or trace an individual’s identity, such as name, social security number, date and place of birth,
mother’s maiden name, or biometric records; and (2) any other information that is linked or linkable to an
individual, such as medical, educational, financial, and employment information.” U.S. Department of Commerce,
National Institute of Standards and Technology, Guide to Protecting the Confidentiality of Personally Identifiable
Information (PII), Special Publication 800-122, § 2.1, April 2010, p. 2–1, citing GAO Report 08-536, Privacy:
Alternatives Exist for Enhancing Protection of Personally Identifiable Information, May 2008.
2
    Privacy Act of 1974, 5 U.S.C. § 552a.
3
 Office of Management and Budget Memorandum M-07-16, Safeguarding Against and Responding to the Breach
of Personally Identifiable Information, May 22, 2007.



Sensitive Information at SSA Offices (A-01-13-13025)                                                                 1
SSA Safeguards for Sensitive Information
The Agency stresses the importance of protecting sensitive information through a variety of
efforts.

•   Training: SSA teaches privacy as a service principle and core value as one of the first
    lessons for newly hired employees whose jobs involve direct public contact. 4 Employees
    may also access video-on-demand training on safeguarding PII.

•   Annual Reminder: SSA formally reminds all employees each year of their duties and
    responsibilities under the Privacy Act and requires that employees protect PII. The Agency
    requires that employees who have access to PII sign a statement acknowledging they have
    read and understood the Agency’s annual reminder document on safeguarding PII.

•   Resources: SSA provides a link to PII resources on the main page of its Intranet site. The
    Agency maintains multiple online resources for employees to research and reference Agency
    PII policy and guidance. This includes a Website that provides “one-stop-shopping” for
    reporting the disclosure of PII; policy related to specific issues, such as email containing PII
    and disposal of documents containing PII; and links to online training on specific PII-related
    topics.

•   Special Efforts: SSA incorporates the safeguarding of privacy as a topic in ongoing training
    and reminder efforts, such as the information security bulletins issued periodically by the
    Office of the Chief Information Officer. As part of its “Think Twice First” campaign, SSA
    has featured PII or privacy-related security topics at least twice since January 2012. 5
    Additionally, we observed that some managers made local efforts, such as

        posting signs in public areas—including near trash bins—reminding the public to
         safeguard PII;
        checking trash bins in public areas to remove any PII;
        removing trash bins in public areas;
        providing for public use a secure bin for documents to be shredded; and
        instructing staff to ask members of the public to write down rather than say aloud their
         SSNs.




4
 Teleservice (800 Number) representatives, service representatives, claims representatives, benefit authorizers, and
claims authorizers.
5
  The “Think Twice First” campaign consists of nine reminders throughout the year on Agency policy. It began as a
regional initiative in the San Francisco Region, and SSA adopted it nationally in January 2012.



Sensitive Information at SSA Offices (A-01-13-13025)                                                                   2
•      Office Design: SSA designs the public areas of relocated or remodeled offices where staff
       and customers discuss PII and sensitive information to safeguard the privacy of members of
       the public. 6 For example, SSA has incorporated such design features as floor-to-ceiling
       barrier walls, sound-absorbent material for
       walls and ceilings, private interview rooms, and
       the placement of half-walls between the general
       seating area and interviewing windows in the
       reception area. However, SSA stated that the
       availability of financial resources—both in
       terms of funds to spend on property redesign
       and the Agency’s ability to replace staff lost to
       attrition who oversee SSA facilities—has
       resulted in an incremental approach to
       designing for privacy. Typically, the Agency
       reassesses privacy concerns as part of the
       leasing process—generally 2 years before a
       lease expires. In the past, some field offices have used recorded background noise (such as
       ventilation system sounds) to help mask conversation that might be overheard.

•      Ad hoc Reminders: SSA field office managers told us that whenever they became aware of
       a concern—in response to a specific incident, for example—management reminds staff to be
       vigilant in safeguarding sensitive information.

SSA Offices We Visited
We made unannounced visits to 38 offices in 9 of SSA’s 10 regions. 7 Specifically, we visited
24 field offices, 12 hearing offices, and 2 Social Security Card centers located near an Office of
the Inspector General, Office of Audit office. We visited all offices during the hours they were
open to the public, and we discussed our observations with office management before concluding
our visit. See Appendix A for additional information on our scope and methodology. The
results presented in this report are a snapshot of what we found in specific SSA offices we
visited on certain days in April 2013.




6
    Employee safety is a key concern in certain design elements such as floor-to-ceiling barrier walls.
7
  We did not visit any offices in the Seattle Region because we do not have audit staff there. See Appendix B for a
list of offices visited.



Sensitive Information at SSA Offices (A-01-13-13025)                                                                  3
 RESULTS OF REVIEW
 We either observed or overheard sensitive information at risk in 13 (34 percent) of the 38 offices
 we visited. 8 Although offices generally were not expecting our visits, we did not observe
 sensitive information at risk in the remaining 25 (66 percent) offices we visited. See Table 1.

                                          Table 1: Results of Visits
                                                            NUMBER OF OFFICES             NUMBER OF OFFICES
                                                                WHERE WE                  WHERE WE DID NOT
                                           NUMBER
                                                              OBSERVED OR                    OBSERVE OR
      TYPE OF SSA OFFICE                  OF OFFICES
                                                               OVERHEARD                      OVERHEAR
                                           VISITED
                                                                SENSITIVE                     SENSITIVE
                                                              INFORMATION                   INFORMATION
Field Offices                                   24                     11                             13
Disability Adjudication and
                                                12                      2                             10
Review Hearing Offices
Social Security Card Centers                    2                       0                             2
             TOTALS                             38                     13                             25

 For example, at the front counter area of one field office, we observed a Social Security card
 (with name and SSN), a letter from SSA to a beneficiary (with their name and address), and a
 printed application for benefits (name, SSN, and claim-specific information). These are all
 documents common in the daily conduct of business at SSA offices.

 Additionally, SSA could not control how careful the public was with sensitive information. For
 example, in one hearing office, a conference room available for the use of the claimants and their
 representatives contained a computer. When the room was not in use, we observed sensitive
 information on the computer screen that included medical information, as well as the individual’s
 name, SSN, and date or place of birth. The manager stated that staff frequently reminded visitors
 of the need to be careful.

 Figure 1 shows the types and amount of sensitive information we found at risk in 13 of the
 38 offices visited.




 8
  Although we observed sensitive information at risk, nothing came to our attention to indicate any members of the
 public actually misused any PII.



 Sensitive Information at SSA Offices (A-01-13-13025)                                                                4
                    Figure 1: Types and Amount of Sensitive Information at Risk




  * Other sensitive information included financial and employment information, four incidents each; addresses, two incidents;
  one incident of educational information; one benefit claim application; and benefit claim information for one interview.

Although the Agency’s efforts to create a culture of safeguarding PII has not entirely eliminated
the risk of inadvertent disclosure, SSA has established policy and taken action to protect
sensitive information from being put at risk. For example, as of May 2013, the Agency stated it
had installed barrier walls in about 670 (54 percent) of its approximate 1,250 field offices.

At several offices, management described special efforts it took to safeguard sensitive
information. For example, one office kept small document shredders near the front counter so
employees could immediately shred no-longer needed documents with PII, rather than piling
them up to take later to a large shredder or collection bin elsewhere in the office. Other offices
have placed posters in public areas to remind the public to be careful with sensitive information
(although they still sometimes find sensitive information carelessly discarded). One office,
knowing this to be a common occurrence, routinely sent a supervisor into public areas
specifically to search for discarded PII.

CONCLUSION
Sensitive information, including PII, is at risk for inadvertent disclosure in SSA offices where the
public transacts business with the Agency. Recognizing this, the Agency has taken a number of
steps to safeguard sensitive information, including emphasizing to all employees their duty to
protect this information and building privacy protections into the physical designs of offices.
SSA should continue to remind staff on an ongoing basis of the importance of protecting
sensitive information.

AGENCY COMMENTS
SSA reviewed the draft report but did not provide any comments. See Appendix C.




Sensitive Information at SSA Offices (A-01-13-13025)                                                                            5
                                        APPENDICES




Sensitive Information at SSA Offices (A-01-13-13025)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we conducted unannounced visits to 38 Social Security
Administration (SSA) offices that the public could visit to conduct business. We visited the
offices during the hours they were open to the public on Tuesday, April 23, 2013; Wednesday,
April 24, 2013; or Friday, April 26, 2013.

Rather than randomly select the offices we visited, we selected offices located near an Office of
the Inspector General, Office of Audit office. Specifically, we visited

•     24 field offices,
•     12 hearing offices, and
•     2 Social Security card centers.

At the SSA offices, we walked through areas accessible to the public and noted personally
identifiable information (PII) that a member of the public might see or overhear. We discussed
the results with SSA management at the conclusion of each visit.

We obtained information from SSA regarding office redesign and privacy protection and
obtained and reviewed SSA policies and procedures related to safeguarding PII.

The entities audited were field offices and Social Security card centers under the Office of the
Deputy Commissioner for Operations and hearing offices under the Office of the Deputy
Commissioner for Disability Adjudication and Review. Also, the Federal Information Security
Management Act of 2002 (FISMA) requires that the Agency’s Chief Information Officer ensure
compliance with FISMA, which encompasses efforts to safeguard PII. 1 We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




1
    FISMA, § 301, § 3544(a)(3), 44 U.S.C. § 3544(a)(3).



Sensitive Information at SSA Offices (A-01-13-13025)                                           A-1
Appendix B – OFFICES VISITED
                                      Table B–1: Offices Visited
                                                                        SSA
    TYPE OF OFFICE                                CITY AND STATE
                                                                     REGION
Field Office                    Fitchburg, Massachusetts           Boston
Field Office                    Gardner, Massachusetts             Boston
Field Office                    Quincy, Massachusetts              Boston
Field Office                    Manchester, New Hampshire          Boston
Hearing Office                  Manchester, New Hampshire          Boston
Field Office                    Providence, Rhode Island           Boston
Hearing Office                  Providence, Rhode Island           Boston
Field Office                    Hoboken, New Jersey                New York
Hearing Office                  New York, New York (Manhattan)     New York
Social Security Card Center     New York, New York, (Manhattan)    New York
Field Office                    Union, New Jersey                  New York
Field Office                    Baltimore, Maryland                Philadelphia
Field Office                    Owings Mills, Maryland             Philadelphia
Field Office                    Philadelphia, Pennsylvania         Philadelphia
Hearing Office                  Philadelphia, Pennsylvania         Philadelphia
Social Security Card Center     Philadelphia, Pennsylvania         Philadelphia
Field Office                    Washington, District of Columbia   Philadelphia
Hearing Office                  Washington, District of Columbia   Philadelphia
Field Office                    Atlanta, Georgia                   Atlanta
Field Office                    Atlanta, Georgia                   Atlanta
Hearing Office                  Atlanta, Georgia                   Atlanta
Field Office                    Bessemer, Alabama                  Atlanta
Hearing Office                  Birmingham, Alabama                Atlanta
Field Office                    Trussville, Alabama                Atlanta
Field Office                    Chicago, Illinois                  Chicago
Field Office                    Chicago, Illinois                  Chicago
Hearing Office                  Chicago, Illinois                  Chicago
Field Office                    Dallas, Texas                      Dallas
Hearing Office                  Dallas, Texas                      Dallas
Field Office                    Kansas City, Missouri              Kansas City
Hearing Office                  Kansas City, Missouri              Kansas City
Field Office                    Lenexa, Kansas                     Kansas City
Field Office                    Denver, Colorado                   Denver
Hearing Office                  Denver, Colorado                   Denver
Field Office                    Berkeley, California               San Francisco
Hearing Office                  Oakland, California                San Francisco
Field Office                    Richmond, California               San Francisco
Field Office                    Walnut Creek, California           San Francisco




Sensitive Information at SSA Offices (A-01-13-13025)                          B-1
Appendix C – AGENCY COMMENTS
September 17, 2013

Subject: Audit No. 22013043 - OIG Draft Report, "Sensitive Information at Social Security
Administration Offices"

Steve,

Thank you for the opportunity to review the Office of the Inspector General draft report,
Sensitive Information at Social Security Administration Offices. We agree with the report as
written and offer no comments.

Please let me know if you have any questions.

Tina

Tina M. Waddell
Assistant Deputy Commissioner
 for Budget, Finance and Management




Sensitive Information at SSA Offices (A-01-13-13025)                                           C-1
Appendix D – MAJOR CONTRIBUTORS
Judith Oliveira, Director

David Mazzola, Audit Manager

David York, Program Analyst

Brennan Kraje, Statistician

Additionally, Office of Audit staff nationwide conducted the office visits.




Sensitive Information at SSA Offices (A-01-13-13025)                          D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
